No. 19-257
IN THE SUPREME COURT OF THE UNITED STATES
CALIFORNIA TROUT, ET AL, PETITIONERS
V.

HOOPA VALLEY TRIBE, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL ENERGY REGULATORY COMMISSION IN
OPPOSITION, via e-mail and first-class mail, postage prepaid, this 28TH day of October 2019.
ISce Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5788 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
October 28, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-000 1
(202) 514-2217
October 28, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefsUSDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0257
CALIFORNIA TROUT & TROUT UNLIMITED
HOOPA VALLEY TRIBE, ET AL.

ANDREW H. ERTESCHIK
POYNER SPRUILL LLP
P0 BOX 1801
RALEIGH, NC 27602
919-783-2895
AERTESCHIK@POYNERSPRUILL.COM
BENJAMIN NOAH GUTMAN
OREGON DEPARTMENT OF JUSTICE
1162 COURT STREET, NW
SALEM, OR 97301
503-378-4402
BENJAMIN.GUTMAN@DOJ.STATE.OR.US
BRIAN JOHNSON
TROUT UNLIMITED
5950 DOYLE STREET
SUITE 2
EMERYVILLE, CA 94608
RICHARD ROO S-COLLINS
WATER & POWER LAW GROUP PC
2140 SHATTUCK AVENUE
SUITE 801
BERKELEY, CA 94704
THANE DENNIS SOMERVILLE
MORISSET SCHLOSSER JOZWIAK &
SOMERVILLE
811 1ST AVE.
STE. 218
SEATTLE, WA 98104
206-386-5200

MISHA TSEYTLIN
TROUTMAN SANDERS LLP
ONE NORTH WACKER DRIVE
STE. 2905
CHICAGO, IL 60606
312-759-1920
PAUL S. WEILAND
NOSSAMAN LLP
18101 VON KARMAN AVENUE
SUITE 1800
IRVINE, CA 92612
949-477-7644
PWEILAND@NOSSAMAN.COM

